No. 20-224

I​N​ T​HE

Supreme Court of the United States
MARION E. PITCH, ​THE​ ​PERSONAL​ ​REPRESENTATIVE​ ​OF
THE​ E
​ STATE​ ​OF​ ANTHONY S. PITCH, ​AND​ LAURA
WEXLER,

v.

Petitioners​,

UNITED STATES OF AMERICA,
Respondent​.
On Petition for a Writ of Certiorari to the
United States Court of Appeals for the
Eleventh Circuit
BRIEF OF CIVIL RIGHTS COLD CASE
RECORDS GROUP AS ​AMICUS CURIAE​ IN
SUPPORT OF PETITIONERS
W​ILLIAM​ M. S​IMPICH​, E​SQ​.
528 G​RAND​ A​VENUE
O​AKLAND​, C​ALIFORNIA​ 94610
P​HONE​: (415) 542-6809

bsimpich@gmail.com
Counsel for Amicus Curiae

1

Table of contents
Page
TABLE OF AUTHORITIES

iii

STATEMENT OF INTEREST

1

INTRODUCTION

2

ARGUMENT

5

I.

The dissent accurately apprehended the
spirit and purpose of the Cold Case Act.
5
A. Amicus drafted the bill with the
intent to maximize public access to
all records.
5
B. The lawmakers who introduced and
shepherded the Cold Case Act
through Congress shared Amicus’
goals for the law.
6

II.

Maintaining the Eleventh Circuit’s
ruling could fundamentally compromise
the intended operation of the Cold Case
Act.
10

III.

Practical and historical considerations
should dispose the courts toward
releasing federal grand jury records on
the Moore’s Ford Lynching and other

i
2

civil rights cold cases, including through
the mechanism of the Cold Case Act. 12
CONCLUSION

18

ii
3ii

TABLE OF AUTHORITIES
Page(s)
Cases
Burkholder v. State​,
491 P.2d 754 (1971)

15

Pitch v. United States​,
915 F.3d 704 (11th Cir. 2019)

3

Pitch v. United States​,
953 F.3d 1226 (11th Cir. 2020) (en
banc)
4
In Re Pitch​,
275 F. Supp. 3d 1373 (M.D. Ga.
2017)

3

United States v. Mahoney​,
495 F. Supp. 1270 (E.D. Pa. 1980) 15
United States v. Roemmele​,
646 F. App'x 819 (11th Cir. 2016)

15

United States v. Rose​,
215 F.2d 617 (3d Cir. 1954)

4iiiiii

15

Statutes
Civil Rights Cold Case Records
Collection Act of 2018, Pub. L. No.
115-426, 132 Stat. 5489 (2019)
(codified at 44 U.S.C. § 2107) passim
Other Authorities
Aditya Shah, ​How To Get Justice In
Civil Rights Cold Cases​, ​Politico,
May 10, 2016​ (2016),
https://www.politico.com/agenda/stor
y/2016/05/how-to-get-justice-for-civilrights-cold-cases-000118/
6
Buck Files, ​Grand Jury Secrecy in the
Eleventh Circuit​, ​The Federal Corner
(2020),
https://www.bainfiles.com/wp-conten
t/uploads/2020/05/May-2020.pdf
2
Congressional Record​ Vol. 164, No. 115
(2018)
7,9
Doug Jones, ​Civil Rights Cold Cases:
Justice Delayed, Not Justice Denied
(2018), https://www.youtube.com/
watch?v=JlXQgHn-USQ&feature=yo
utu.be
16

iv 5

Doug Jones, Press Release, ​Jones, Cruz
Announce House Passage of Civil
Rights Cold Case Legislation​,
https://www.jones.senate.gov/newsro
om/press-releases/jones-cruz-announ
ce-house-passage-of-civil-rights-coldcase-legislation
9
Exec. Order No. 13,526, 75 Fed. Reg. 2
(Dec. 29, 2009)
13
From Students in High School All the
Way to the President’s Desk: How a
Government Class Fought for the
Release of Unsolved FBI Civil Rights
Case Files​, Wash. Post, Feb. 23, 2019
1
Holly Cook, ​High School Advocates
Renew Hope for Answers to Civil
Rights-Era Mysteries​, ABA Journal,
Nov. 1, 2019
1

v6

THE ATTORNEY GENERAL’S
SEVENTH ANNUAL REPORT TO
CONGRESS PURSUANT TO THE
EMMETT TILL UNSOLVED CIVIL
RIGHTS CRI:ME ACT OF 2007
AND FIRST ANNUAL REPORT TO
CONGRESS PURSUANT TO THE
EMMETT TILL UNSOLVED CIVIL
RIGHTS CRIMES
REAUTHORIZATION ACT OF 2016
, (2018),
https://www.justice.gov/crt/page/file/
1059451/download​.
13
Jerry Mitchell, ​Students Write Bill to
Open Civil Rights Files for Families,
Investigators, ​Clarion Ledger, July
10, 2018
1
Kayla Goggin, ​En Banc 11th Circuit
Hears Bid to Release Lynching
Records
(2019),https://www.courthousenews.c
om/en-banc-11th-circuit-hears-bid-torelease-lynching-records
2
Laura Wexler, ​Fire in a Canebrake: The
Last Mass Lynching in America
(2013)
1​1

vi

7

Michael A. Foster, ​Federal Grand Jury
Secrecy: Legal Principles and
Implications for Congressional
Oversight​ (2019),
https://fas.org/sgp/crs/secrecy/R45456
.pdf
14
Natisha Korecki, ​Bobby Rush Pushes for
Access to Civil Rights-era Cold Case
Records​, Politico, June 6, 2016
7
Stuart Wexler, ​America’s Secret Jihad
(2015)
11
UK Public General Acts 1958 c. 51
13
Section 5 Freedom of Information
(Removal of Conclusive Certificates
and Other Measures) Bill, S. 42th
Parliament 2008 [2009]

vii

8

STATEMENT OF INTEREST​1
Amicus (​the Civil Rights Cold Case Records)
Group are students of the past five years’ AP
Government and Politics classes from Hightstown
High School in central New Jersey. These students,
led by their instructor Stuart Wexler, drafted the bill
from a combination of the ​Kennedy Assassination
Records Collection Act of 1992 and the ​Emmett Till
Unsolved Civil Rights Crime Act of 2007 to create
what would ultimately become the foundation for the
bipartisan-supported ​Civil Rights Cold Case Records
Collection Act of 2018​, Pub. L. No. 115-426, 132 Stat.
5489 (2019) (codified at 44 U.S.C. § 2107) (the “Cold
Case Act”). ​See From Students in High School All
the Way to the President’s Desk: How a Government
Class Fought for the Release of Unsolved FBI Civil
Rights Case Files​, Wash. Post, Feb. 23, 2019.​2
Amicus lobbied for the bill at every stage of the
legislative process, in both chambers, at the
committee level, and to the President for his final
signature. After the bill was passed, Amicus worked
to obtain an appropriation, with success coming in
​Pursuant to Rule 37.6, amicus affirms that no counsel for a
party authored this brief in whole or in part and that no person
other than amicus, its members, or its counsel made a monetary
contribution to its preparation or submission. Counsel of record
for the parties received notice at least 10 days prior to the due
date of the intention of amicus to file this brief and consented to
its filing.
1

​See also, e.g.​, Jerry Mitchell, ​Students Write Bill to Open Civil
Rights Files for Families, Investigators, ​Clarion Ledger, July 10,
201​8; Holly Cook, ​High School Advocates Renew Hope for
Answers to Civil Rights-Era Mysteries​, ABA Journal, Nov. 1,
2019.
2

1

December 2019. Amicus thus has a unique
perspective on the Cold Case Act, and a particular
interest in this case since the Act was part of the
diverging opinions of the majority and dissent in the
Eleventh Circuit’s decision below. This Court should
grant review here for the reasons set forth by the
petitioners. Review is further warranted to correct
the majority’s decision, which could have a
detrimental impact on the Cold Case Act and
Congress’ intent that the Act provide a vehicle to
uncover critical records—including grand jury
records—to help right historical wrongs.
INTRODUCTION
Amicus first became aware of the ​Pitch litigation​3
in October 2019, when articles emerged detailing the
en banc proceedings in the Eleventh Circuit. The
articles quoted an exchange between the appellee’s
attorneys and the court regarding the Cold Case Act.
It was only upon reading this case that the students
learned of the multi-year effort of historian Anthony
S. Pitch to obtain grand jury records on the unsolved
murder of two black couples on Moore’s Ford Bridge
by a mob on July 25, 1946, known as the Moore’s
Ford Lynching.​4

​Buck Files, ​Grand Jury Secrecy in the Eleventh Circuit​, ​The
Federal
Corner
​(2020),
https://www.bainfiles.com/wp-content/uploads/2020/05/May-202
0.pdf.
4
​Kayla Goggin, ​En Banc 11th Circuit Hears Bid to Release
Lynching Records.
(2019),https://www.courthousenews.com/en-banc-11th-circuit-he
ars-bid-to-release-lynching-records​.
3

2

The United States District Court for the Middle
District of Georgia initially ruled that the federal
district courts have the inherent authority to release
grand jury records to the public.​5 Citing ​In re
Petition to Inspect and Copy Grand Jury Materials
(Hastings), ​735 F.2d 1261 (11th Cir. 1984), ​the court
concluded that “it has long been recognized that a
district court’s authority to order disclosure of grand
jury records is not limited to the exceptions found in
Rule 6(e).” A divided Eleventh Circuit panel affirmed
the district court’s ruling,​6 finding that “[W]e cannot
say that the district court abused its substantial
discretion in ordering the release of the grand jury
transcripts.” Sitting en banc, in a 9-3 decision,​7 The
Eleventh Circuit overturned the prior rulings,
concluding that the Federal Rules of Criminal
Procedure “leave no room for district courts to
fashion new exceptions beyond those listed in Rule
6(e). We therefore hold that Rule 6(e) by its plain
terms limits disclosures of grand jury materials to
the circumstances enumerated therein.”
Both the majority and dissenting opinions en
banc discussed Sections 2-3 of the Cold Case Act,
which provide:
(2) GRAND JURY MATERIALS.—
(A) IN GENERAL.—The Review Board
may request the Attorney General to
​In Re Pitch​, 275 F. Supp. 3d 1373 (M.D. Ga. 2017).
​Pitch v. United States,​ 915 F.3d 704 (11th Cir. 2019).
7
​Pitch v. United States​, 953 F.3d 1226 (11th Cir. 2020) (en
banc).
5
6

3

petition any court in the United States to
release any information relevant to civil
rights cold cases that is held under the
injunction of secrecy of a grand jury.
(B)
PARTICULARIZED
NEED.—A
request for disclosure of civil rights cold
case records under this Act shall be
deemed to constitute a showing of
particularized need under rule 6 of the
Federal Rules of Criminal Procedure.
(3) DEADLINE.—
(A) IN GENERAL.—The Attorney General
shall respond to any request that is subject
to this subsection within 45 days.
(B) NON DISCLOSURE OF GRAND
JURY INFORMATION.— If the Attorney
General determines that information
relevant to a civil rights cold case that is
held under the injunction of secrecy of a
grand jury should not be made public, the
Attorney General shall set forth in the
response to the request the reasons for the
determination.
Amicus the Civil Rights Cold Case Records
Group (a designation students gave themselves in
2018 due to the multi-year nature of the effort, which
also included former students) concurs with the
dissent and urges this Court to grant certiorari and
overturn the majority’s decision below. Doing so will
not only address a circuit conflict concerning Rule
4

6(e) as the petitioners explain, but also avoid
potentially limiting the intended scope and force of
the Cold Case Act.
ARGUMENT
I. The dissent accurately apprehended the
purpose of the Cold Case Act.
A. Amicus drafted the bill with the intent to
maximize public access to all records.
As the original drafters of the bill that became the
Cold Case Act, Amicus have frequently and
stridently asserted what they argue in this brief—the
law was intended to release as many records to the
public with as few restrictions and redactions as
possible. Although the Senate and not Amicus
contributed the specific language about grand jury
records, Amicus can speak to the purpose of the law
as a whole; a purpose echoed by key players in
legislative history.
The Cold Case Act was written with the intent of
easing the process of releasing records from civil
rights cold cases and providing much needed answers
to the families of the victims, and the American
community as a whole​. ​The student drafters’
objectives were largely influenced by their
frustrations with the Freedom of Information Act
(FOIA) process. Having filed a number of FOIA
requests seeking release of records on civil rights cold
cases that had been opened but closed under the
Emmett Till Unsolved Civil Rights Act of 2007, the
students became intimately aware of the flaws in the
5

system. The FOIA review process was not efficient
and, due to excessive redactions or withheld material
upon release, the process yielded few new insights
into the civil rights cold case crimes the students
chose to focus on. As the students learned, this is
consistent with watchdog criticisms of the FOIA
process as a whole, with requests taking over a year
to be processed, if they are not rejected altogether.
This in turn prompted the students to write the Cold
Case Act. ​See ​Aditya Shah, ​How to Get Justice in
Civil Rights Cold Cases​, Politico, May 10, 2016​.
While Amicus hold out hope that records releases
might spur some long overdue criminal prosecutions,
they recognized that, given the passage of time, such
cases would be rare if they happened at all. Instead,
the students and their teacher consistently
emphasized in interviews the role the Cold Case Act
could play in helping provide answers about the
crimes to victims’ families and communities, and in
clarifying and illuminating the public record on
historical injustices.
B. The lawmakers who introduced and
shepherded the Cold Case Act through
Congress shared Amicus’ goals for the
law.
Just one month after Hightstown High School
Junior Aditya Shah published a May 2016 ​Politico
article highlighting the intent of the students’
proposed bill, House Representative Bobby Rush of
the Illinois 3rd District gave an interview to the
same magazine championing the bill's goals and
6

affirming its intent. Rep. Rush predicted that that
the law, which creates an independent review board
of scholars to facilitate the release of records, could
“lift up the morass of our common past …
diminishing redactions [and] ... make it easier for
these families who for generations did not receive the
totality of American Justice.” Natisha Korecki,
Bobby Rush Pushes for Access to Civil Rights-era
Cold Case Records​, Politico, June 6, 2016. Rep. Rush
introduced the bill into the 115th Session of the
United States House of Representatives in 2017.
Students also sought outside support from Doug
Jones, a then-private practice lawyer who, as a
federal prosecutor, helped convict two Ku Klux Klan
members for the deadly bombing of the 16th Street
Baptist Church almost four decades after the original
crime. Many months later, Jones introduced the Cold
Case Act into the United States Senate after winning
a special election in 2018. He was joined by Texas
Senator Ted Cruz as co-sponsor. The Senate version
of the bill, which added, among other things, the
provisions on grand jury records, ultimately
prevailed and the bill passed by unanimous consent
in the Senate and with only 6 “Nay” votes in the
House. ​See ​S.3191 - 115th Congress (2017-2018):
Civil Rights Cold Case Records Collection Act of
2018​.
In introducing the bill in the Senate, Jones
highlighted the ultimate purpose of the law on the
Senate floor. ​Congressional Record Vol. 164, No. 115
(2018). ​Speaking to his own experience of
7

successfully prosecuting a cold case crime, Jones
noted the potential of the law to bring forth criminal
prosecutions
as investigative reporters and
historians gain access to new leads. But Jones
emphasized that, this long after the fact, such
prosecutions would be unlikely. However, he added:
Justice can take many forms. It doesn’t
always have to be a criminal conviction.
One measure of justice—not a full measure
but a measure nonetheless—can be
achieved through a public examination of
the facts and determination of the truth
about what happened and why… but
because these were criminal cases, the
records and files relating to these unsolved
cases are often classified or shielded from
public view, and sometimes they are
literally scattered among various agencies
and hard to find.
Yet the victims of these crimes and their
families have no less right to justice than
they did at the time the crimes were
committed, and the American people have
a right to know this part of our Nation’s
history.
As has often been said, if we do not learn
from the mistakes of the past, we are
doomed to repeat them. In today’s climate,
I believe we need to be more than ever
vigilant and knowledgeable about the
mistakes of the crimes of the civil rights
era.

8

Congressional ​Record​ Vol. 164, No. 115​ (2018)​.
Senator Cruz echoed this sentiment, explaining,
after the bill passed the House, that “​Crimes
committed against Americans seeking their rightful
place in the American dream during the civil rights
movement too often went unsolved…. It is my hope
that, with additional sunlight to these cold cases,
there will be revelation, justice, and closure where it
has long been lacking​.” ​Doug Jones, Press Release,
Jones, Cruz Announce House Passage of Civil Rights
Cold
Case
Legislation​,
https://www.jones.senate.gov/newsroom/press-release
s/jones-cruz-announce-house-passage-of-civil-rights-c
old-case-legislation. As Representative Rush added,
“​With the passage of this legislation, families and
communities that have waited too long for answers
about the loss of loved ones may finally have the
chance for closure.” ​Id.
The dissent below recognized the broad purpose
of the Cold Case Act ​“to provide public access to the
records of the covered cold cases, for educational,
historical, and scholarly uses.” 953 F.3d at 1263
(Rosenbaum, J., dissenting). And that purpose and
the Act’s provisions on grand jury materials
presupposed that district courts have inherent
authority to order the production of historic grand
jury materials.

9

II. The
Eleventh
Circuit’s
ruling could
fundamentally compromise the intended
operation of the Cold Case Act.
The decision by Eleventh Circuit fundamentally
threatens the reach and potency of the Cold Case
Act. The courts were meant to be allies in acquiring
cold case records; instead, the Eleventh Circuit
majority limited that role and, by implication, a
section of the law would now be a roadblock to
releasing the records. It is vital that the courts use
their inherent authority to force the release of these
records when necessary because federal grand jury
records may, for certain cases such as the Moore’s
Ford Lynching, be the best primary sources for
understanding decades-old racial murders and the
failure of law enforcement agencies to resolve them
at the time of commission.
A vast majority, if not all of the civil rights cold
cases that were opened and closed under the recent
Emmett Till Unsolved Civil Rights Act of 2007, were
state level crimes; thus limiting the extent to which
federal authorities could investigate the murders at
the time. Due to pervasive racism in certain regions
of the country, often there was little to no chance
that state and local authorities would run a full and
honest investigation. One need only look at cases like
the 1964 Mississippi Burning Case (in which local
law enforcement themselves were involved in the
crime) to understand the extent of this corruption of
the state and local criminal justice systems during
that era.
According to historians, the federal

10

government, through the Federal Bureau of
Investigation and the Department of Justice, was
often regarded by local authorities and witnesses as
an outsider intruding on state affairs. At best the
DOJ could pursue civil rights charges, but while this
was used to allow for investigative assistance or a
parallel investigation by the FBI, actual charges
under Reconstruction-era civil rights laws were
uncommon until the late 1960s. ​See ​Stuart Wexler,
America’s Secret Jihad (2015). President Harry
Truman ordered just such a parallel civil rights
investigation into the Moore’s Ford Lynching in
1946, but, according to historians, only with
reluctant acceptance by then FBI Director, J. Edgar
Hoover. He knew what was often the case with such
investigations—that it was difficult for the FBI to get
the needed cooperation, from either the local sheriff
or local witnesses, to thoroughly investigate the
crimes. It was exactly the problem the FBI
encountered in the Moore’s Ford Lynching. ​See
Laura Wexler, ​Fire in a Canebrake: The Last Mass
Lynching in America​ (2013).
A potential solution to this conundrum, one
pursued in the Moore’s Ford Lynching case and other
crimes clouded by racial animus, was to use a federal
grand jury. This could force a witness to testify and
then hold the witness accountable with potential
charges of perjury or obstruction of justice for
inadequate cooperation. The secret hearings may
well reveal important, even dispositive information
about the crime—but likely only to the individuals
directly involved in the grand jury process. This is
11

because even a productive grand jury investigation
could be thwarted by the jurors themselves, and a
biased grand jury selection process might ultimately
fail to produce an indictment, even in the face of
compelling evidence.
The grand jury materials may provide the only
insights as to why the Moore’s Ford grand jury—
consisting of twenty-three individuals, only two of
whom were black— failed to indict. Wexler, ​Fire in a
Canebrake​, ​supra​. Thus a full examination of grand
jury records could yield important information on
what happened during these crimes, even if no one
was indicted at the time. Furthermore, with access to
federal grand jury records, scholars could educate the
country about the role racial prejudice played in
undermining trust between law enforcement and the
black community. By implication, the Cold Case Act
assumes the courts will use their inherent authority
for this very purpose. If, however, the majority
decision below holds, these records could invariably
remain secret, thus undermining the very purpose of
the Cold Case Act.
III. Practical and historical considerations
should dispose the courts toward releasing
federal grand jury records on the Moore’s
Ford Lynching and other civil rights cold
cases, including through the mechanism of
the Cold Case Act.
The Moore’s Ford Lynching took place on July 25,
1946, more than seventy-four years ago. Most
government documents in the Western world are
12

released in less than half of this time. For example,
the United Kingdom, Ireland, and Australia follow
the 30-year rule, which is an informal rule-of-thumb
that orders the release of records withheld by the
government three decades after they are created.​8
In the same spirit, U.S. Executive Order 13526
states that, “all classified records that (1) are more
than 25 years old and (2) have been determined to
have permanent historical value under title 44,
United States Code, shall be automatically
declassified whether or not the records have been
reviewed.
All
classified
records
shall
be
automatically declassified on December 31 of the
year that is 25 years from the date of origin.” Exec.
Order No. 13,526, 75 Fed. Reg. 2 (Dec. 29, 2009)​.
The average age of civil rights cold cases examined
by the Justice Department under the Emmett Till
Act was fifty-nine years old.​9
Congress recognized the need for greater
transparency in these civil rights cold cases when it
​ While international norms are not binding on American legal
institutions, they do suggest a common sense approach to
government transparency. UK Public General Acts 1958 c. 51
Section 5 Freedom of Information (Removal of Conclusive
Certificates and Other Measures) Bill, S. 42th Parliament 2008
[2009].
8

​THE ATTORNEY GENERAL’S SEVENTH ANNUAL
REPORT TO CONGRESS PURSUANT TO THE EMMETT
TILL UNSOLVED CIVIL RIGHTS CRI:ME ACT OF 2007 AND
FIRST ANNUAL REPORT TO CONGRESS PURSUANT TO
THE EMMETT TILL UNSOLVED CIVIL RIGHTS CRIMES
REAUTHORIZATION
ACT
OF
2016
,
(2018),
https://www.justice.gov/crt/page/file/1059451/download.
9

13

passed the Emmett Till Unsolved Civil Rights Act of
2007, which permitted the reopening of civil rights
cases prior to 1970. Despite that Act’s intentions, it
had an overall miniscule effect on the justice system.
Out of 132 reopened cases, 120 were closed, ten were
sent back to the states, and only two resulted in
prosecution. Almost all civil rights cold cases of the
past four decades were solved not by the federal
government, but by the combined efforts of
investigative journalists, news reporters, and local
prosecutors.​10 Without the ability to data-mine
documents, it effectively limits the public’s ability to
bring justice to families, answers to communities,
and revisions to the historical record.
A major barrier to data-mining is grand jury
secrecy, which serves an important function in
protecting the integrity of ongoing criminal
investigations. Nevertheless, secrecy has little to no
practical relevance to the cold cases under question,
including the Moore’s Ford Lynching. The
long-established rule of grand jury secrecy is
enshrined in Federal Rule of Criminal Procedure
6(e), which provides that government attorneys and
the jurors themselves, among others, “must not
disclose a matter occurring before the grand jury.”​11
However, because the median case age is 59 years

​Shah, ​supra​.
Michael A. Foster, ​Federal Grand Jury Secrecy: Legal
Principles and Implications for Congressional Oversight (2019),
https://fas.org/sgp/crs/secrecy/R45456.pdf.
10
11

14

old, these justifications for non-disclosure make little
practical sense.
The five reasons for grand jury secrecy are, “1. ​to
prevent the escape of those whose indictment may be
contemplated; 2. to insure the utmost freedom to the
grand jury in its deliberations, and to prevent
persons subject to indictment or their friends from
importuning the grand jurors; 3. to prevent
subornation of perjury or tampering with the
witnesses who may testify before [the] grand jury
and later appear at the trial of those indicted by it; 4.
to encourage free and untrammeled disclosures by
persons who have information with respect to the
commission of crimes; 5. to protect [the] innocent
accused who is exonerated from disclosure of the fact
that he has been under investigation, and from the
expense of standing trial where there was no
probability of guilt.” ​United States v. Rose​, 215 F.2d
617 (3d Cir. 1954); ​Burkholder v. State​, 491 P.2d 754
(1971); ​United States of America v. James J.
Mahoney​, 495 F. Supp. 1270 (E.D. Pa. 1980); ​United
States v. Roemmele​, 646 F. App'x 819 (11th Cir.
2016)​. Common sense dictates that in the cases
covered by the Cold Case Act, there are no criminals
left to escape, no witnesses to protect, no evidence
that can be tampered with, no testimony to be
compromised, and no reputations left to be tarnished.
Even if there were witnesses or innocent people
who needed protection, the Cold Case Act has a
board of scholars able to redact any potential names
of witnesses in order to protect the reputations of any

15

living individuals. The justice system is clearly
unharmed by the release of these records. In fact, the
release of the grand jury materials will be a small
form of justice for the relatives of the victims of the
Moore’s Ford Lynching. As Senator Doug Jones
articulated when he introduced the Cold Case Act to
the Senate, “one measure of justice is a public review
of the facts.” ​Doug Jones, ​Civil Rights Cold Cases:
Justice Delayed, Not Justice Denied (2018),
https://www.youtube.com/
watch?v=JlXQgHn-USQ&feature=youtu.be​.
Senator Jones also highlighted the relevance of
the history of such cases in informing the current
racial dialogue. He did so two years before
highly-publicized and controversial killings of
African-Americans by law enforcement officers
ignited an unprecedented wave of public protest. Just
between May 24 and August 22, 2020, in response to
criminal justice issues and race, 7,750 total protests
linked to the Black Lives Matter movement have
occurred. These protests are not simply about the
killings themselves but about the justice system’s
response to the killings.
The story that federal grand jury records can
convey about the past is not limited to what
happened to the victims but also to what did ​not
happen in the criminal justice system in response to
those decades-old crimes. In connecting racial
injustices of the present to the past, and arguing for
a more complete release of records on the latter,
Northeastern Law Professor Margaret Burnham

16

noted; “​an acknowledgment that this legacy of
violence still haunts African-American communities
may foster more productive conversations and help
generate trust in our legal system.”​12 The possibility
of greater understanding, given the age of the
records in question, trumps the demand of grand jury
secrecy. Congress understood this in enacting the
Cold Case Act and it presupposed such records would
be available through a court’s inherent authority.

​Margaret A. Burnham and Margaret M. Russell, ​The Cold
Cases
of
the
Jim
Crow
Era
(2015)​,
https://www.nytimes.com/2015/08/28/opinion/the-cold-cases-of-t
he-jim-crow-era.html?auth=login-google
12

17

CONCLUSION
The Petition for a Writ of Certiorari should be
granted.

Respectfully submitted,
William M. Simpich, Esq.
528 Grand Avenue
Oakland, California 94610
Phone: (415) 542-6809
bsimpich@gmail.com
Counsel for Amicus Curiae

18

